   U.S. ELECTION ASSISTANCE COMMISSION
        OFFICE OF INSPECTOR GENERAL




                       FINAL REPORT:
              U.S. ELECTION ASSISTANCE COMMISSION

     EVALUATION OF COMPLIANCE WITH THE REQUIREMENTS OF
     THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT

                       FISCAL YEAR 2013




NO. I-PA-EAC-02-13
SEPTEMBER 2013
                         U.S. ELECTION ASSISTANCE COMMISSION
                                 OFFICE OF INSPECTOR GENERAL
                                1201 New York Ave. NW - Suite 300
                                      Washington, DC 20005




Memorandum

                                                                    September 19, 2013

To:        Alice Miller
           Acting Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Report –U.S. Election Assistance Commission’s Compliance with the
           Requirements of the Federal Information Security Management Act (Assignment No.
           I-PA-EAC-02-13)

In accordance with the Federal Information Security Management Act (FISMA), the Office of
Inspector General (OIG) engaged Leon Snead & Co. P.C., an independent certified public
accounting firm, to conduct an audit of the U.S. Election Assistance Commission’s (EAC)
compliance with the OMB Circular A-130 and FISMA requirements. The audit included
assessing the EAC’s effort to develop, document, and implement an agency-wide program to
provide information security for the information and information systems that support the
operations and assets of the EAC.

Leon Snead & Co. found that the EAC was in substantial compliance with FISMA requirements.
The EAC had developed an agency-wide IT security program based upon assessed risk, and the
security program provided reasonable assurance that the agency's information and information
systems were appropriately protected.

The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

If you have any questions regarding this report, please call me at (202) 566-3125.
U.S. Election Assistance Commission
       Compliance with the Requirements of


 the Federal Information Security Management Act



                  Fiscal Year 2013






                     Submitted By



               Leon Snead & Company, P.C.


  Certified Public Accountants & Management Consultants
                                                                                              Certified Public Accountants
LEON SNEAD ______ ____________________________________________________________
&COMPAN~P.C.
                                                                 & Management Consultants

416 Hungerford Drive , Suite 400
Rockville. Maryland 20850
301-738-8190
fax: 301 -738-8210
leoTIsnead .companypc@erols.com




                                                                 September 13, 2013



            Mr. Curtis W. Crider 

            Inspector General 

            U.S. Election Assistance Commission 

            1440 New York Ave, N.W., Suite ISO 

            Washington, DC 20005 


            Dear Mr. Crider:

            Enclosed is the final U. S. Election Assistance Commission' s (EAC) audit report, Compliance
            with the Requirements of the Federal Information Security Management Act, (FISMA) for fiscal
            year 2013. The report shows that EAC was in substantial compliance with FISMA requirements.

            We appreciate the courtesies and cooperation provided by EAC during the audit.


                                                                 Sincerely,

                                                             )
                                                             ~nead
                                                                  '--'4-)     ~       -c/
                                                                 Partner
                                                     TABLE OF CONTENTS






                                                                                                                                            Page


Introduction ......................................................................................................................................1 

Objective, Scope and Methodology.................................................................................................1 


Summary of Audit............................................................................................................................2 


Appendix 1 – Status of Prior Year Findings....................................................................................3 


Appendix 2 – Agency Response to Draft Report.............................................................................4 





Leon Snead & Company, P.C.                                                i
Introduction

Leon Snead & Company, P.C. has completed an audit of EAC’s Information Technology (IT)
security program for fiscal year 2013. Title III of the E-Government Act, entitled the Federal
Information Security Management Act (FISMA) requires each Federal agency to develop,
document, and implement an agency-wide program to provide security for information and
information systems that support the operations and assets of the agency, including those systems
managed by another agency or contractor. FISMA, along with the Paperwork Reduction Act of
1995 and the Information Technology Management Reform Act of 1996, emphasize a risk-based
policy for cost-effective security. In support of and reinforcing this legislation, the Office of
Management and Budget (OMB) through Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
executive agencies within the Federal government to:

    •		   Plan for security;
    •		   Ensure that appropriate officials are assigned security responsibility;
    •		   Periodically review the security controls in their information systems; and
    •		   Authorize system processing prior to operations and, periodically, thereafter.

The EAC is an independent, bipartisan agency created by the Help America Vote Act (HAVA)
to assist in the effective administration of Federal elections. In October 2002, Congress passed
HAVA to invest in election infrastructure and set forth a comprehensive program of funding,
guidance, and ongoing research. To foster those programs and to promote and enhance voting
for United States Citizens, HAVA established the EAC. EAC’S mission is to assist in the
effective administration of Federal elections. The agency is charged with developing guidance to
meet HAVA requirements, adopting voluntary voting systems guidelines, and serving as a
national clearinghouse of information about election administration. EAC also accredits testing
laboratories and certifies voting systems and audits the use of HAVA funds.

Objective, Scope and Methodology

The objective of our audit was to assess whether the EAC had developed, documented, and
implemented an agency-wide information security program, as required by OMB Circular A-130
and FISMA. To accomplish this objective, we selected a sample of controls contained in NIST
SP 800-53 (rev 3), Recommended Security Controls for Federal Information Systems and
Organizations, for a moderate risk system, and:

    •		 Reviewed IT security program policies and procedures issued by the agency;
    •		 Performed tests on the agency’s general support system to determine whether the agency
        had implemented required management, operational and technical controls;
    •		 Met with EAC officials, observed IT security operations, and performed various tests of
        IT controls implemented by the agency;
    •		 Performed independent vulnerability scans of the agency’s internal network; and
    •		 Reviewed the continuous monitoring program established by the agency.




Leon Snead & Company, P.C.		                       1
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. Other criteria used in the audit included the
National Institute of Standards and Technology (NIST) guidance, and OMB Memoranda. The
audit was performed during the period May through August 2013.

Summary of Audit

Based upon our audit tests as described above, overall, we concluded that EAC was in
substantial compliance with FISMA requirements. We determined that EAC had developed an
agency-wide IT security program based upon assessed risk, and the security program provided
reasonable assurance that the agency's information and information systems are appropriately
protected.

We have included the agency' s comments to the draft report as Appendix 2.




J- .".~e...Jl-'6 c,ot"'PA.,.s7 I fc....
~ Snead & Company, P.C.
August 23 , 2013




Leon Snead & Company, P. C.                    2
                                                                                Appendix 1


                     Status of Prior Year Findings and Recommendations



                   Prior Year Finding                                 Status

  Vulnerability scans that we performed during the audit Actions taken by EAC addressed this
  of EAC’s general support system identified several issue. Closed.
  critical and high risk vulnerabilities that had not been
  remediated. We attributed this issue to the need for
  improved monitoring and coordination of patch
  management efforts. As a result, some vulnerabilities
  remained within the system even though there were
  “patches” and other actions available to fix the
  security issues.




Leon Snead & Company, P.C.                   3
                                                                                    Appendix 2

                                 US Election Assistance Commission
                                 1201 New York Ave. NW - Suite 300
                                 Washington, DC 20005




MEMORANDUM

TO: 	        Curtis Crider
             Inspector General

FROM: 	      Alice P. Miller   ') ;;~'1
                             I r ' ~
                                        .
                                        j}

             COO and Acti8WeC Ive Director

SUBJECT: 	   Management response to Draft Audit Report - U.S. Election Assistance Commission
             Audit of Compliance with the Requirements of the Federal Information Security
             Management Act (FISMA) Fiscal year 2013 (Assignment No.I-PA-EAC-02-13)

DATE: 	      September 12, 2013

             After reviewing the draft audit report and summary of the audit results of the FISMA
             Audit, management agrees with the audit result submitted by the auditors.

             As the audit report indicates, management took the necessary actions to address the
             findings that were found in the previous year audit report and EAC is now substantially
             in compliance with the FISMA requirements.

             We thank you and the auditors for courtesies and assistance that were extended to EAC
             during the audit process.

             If you have any questions regarding this response, please do not hesitate to contact me
             at (202) 566-3110.




             cc: Mohammed Maeruf, CIO 

                 Annette Lafferty, CFO 





                                               4

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1201 New York Ave. NW - Suite 300
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
